No. 20-1019
IN THE

Supreme Court of the United States
JADE THOMPSON,
Petitioner,
v.

MARIETTA EDUCATION ASSOCIATION, ET AL.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRIEF OF AMICUS CURIAE THE
COMPETITIVE ENTERPRISE INSTITUTE IN SUPPORT OF PETITIONER

Certificate of Word Count
Pursuant to Rule 33.1(h), I hereby certify that this brief contains 2,379
words as counted by Microsoft Word, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d), and therefore complies with the word
count limits set out in Rule 33. This brief was prepared in 12-point Century
Schoolbook font, with footnotes in 10-point font.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Feb. 25, 2021.

Sam Kazman

Sam Kazman
COMPETITIVE ENTERPRISE INSTITUTE
1310 L St. NW, 7th Floor
Washington, D.C. 20005
(202) 331-1010

